HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services Provided By Southcoast Hospitals Group For Fiscal Year Ending September 1998,"(A-01-00-00555)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services Provided By Southcoast Hospitals Group for Fiscal Year Ending September
1998," (A-01-00-00555)
June 4, 2001
Complete
Text of Report is available in PDF format (678 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our report points out that, in Fiscal Year (FY) 1998, Southcoast Hospitals Group (SHG) did not establish or follow existing
procedures for the proper billing ofMedicare outpatient pharmacy services. Based, in part, on a statistical sample, we
estimate that SHG had overstated its FY 1998 Medicare outpatient pharmacy charges by at least $112,030. Specifically, we
found that SHG billed for medications used under conditions not covered by Medicare and for medications not properly supported
by medical records. We also found billings for unallowable, self ­administered medications, over $80,000 which had been
identified by SHG during its own internal review of pharmacy charges. We recommended that SHG strengthen its procedures
to ensure that charges for pharmacy services are covered and properly documented in accordance with Medicare regulations.
We will provide the results of our review to Associated Hospital Services, the Medicare FI, so that it can apply the adjustment
of $112,030 to SHG's FY 1998 Medicare cost report. The SHG concurred with our recommendations and indicated that it has
implemented procedures to ensure that services are charged in accordance with Medicare regulations. The SHG stated that
it will work with the FI in processing the appropriate adjustment to its cost report.